NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


               OIG REPORT TO OMB ON THE
         NATIONAL CREDIT UNION ADMINISTRATION’S
                  COMPLIANCE WITH THE
             FEDERAL INFORMATION SECURITY
                   MANAGEMENT ACT
                         2005


         Report #OIG-05-08           September 30, 2005




                         William A. DeSarno
                         Inspector General


    Released by:                       Auditor-in-Charge:



    James Hagen                       Tammy F. Rapp, CPA, CISA
    Asst IG for Audits                Sr Information Technology Auditor
                OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
                  COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY ACT - 2005
                                       Report #OIG-05-08

                                            CONTENTS

 Section                                                                               Page

     I        EXECUTIVE SUMMARY                                                         i

     II       Office of Management & Budget Report Format                               1

Appendix

    A         Independent Evaluation of the NCUA Information Security Program – 2005

    B         NCUA Financial Statement Audits – FY2004 (excerpt)




Appendices are limited to restricted official use only.
                OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
                  COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY ACT - 2005
                                       Report #OIG-05-08


                               I. EXECUTIVE SUMMARY
The Office of Inspector General (OIG) for the National Credit Union Administration (NCUA)
engaged Cotton & Company LLP to conduct an independent evaluation of its information
systems and security program and controls for compliance with the Federal Information Security
Management Act (FISMA), Title III of the E-Government Act of 2002.

Cotton & Company evaluated NCUA’s security program through interviews, documentation
reviews, technical configuration reviews, social engineering testing, and sample testing. We
evaluated NCUA against standards and requirements for federal government agencies such as
those provided through FISMA, National Institute of Standards and Technology (NIST) Special
Publications (SPs), and Office of Management and Budget (OMB) memorandums. We
scheduled an exit conference with NCUA officials on October 3, 2005, to discuss evaluation
results, but the OCIO respectfully declined.

Our work identified two issues that can be classified as significant deficiencies in NCUA’s
security structure. OMB defined a significant deficiency for FISMA reporting purposes in its 2004
reporting guidance (OMB M-04-25):

       Significant Deficiency – is a weakness in an agency’s overall information systems
       security program or management control structure, or within one or more
       information systems, that significantly restricts the capability of the agency to carry
       out its mission or compromises the security of its information, information
       systems, personnel, or other resources, operations, or assets. In this context, the
       risk is great enough that the agency head and outside agencies must be notified
       and immediate or near-immediate corrective action must be taken.

While the Chief Information Officer (CIO) has initiated projects to address these issues, both of
the significant deficiencies concerning NCUA’s security program remain open and are being
reported for the third consecutive year.

First, this year and in prior-year reviews we noted several weaknesses related to NCUA’s
General Support System (GSS) Certification and Accreditation (C&A) and its technical
components. This is significant, because every major application relies on the security of the
operating system and network infrastructure on which it resides. Prevention of unauthorized
access is necessary to ensure infrastructure security. NCUA’s general support system
continues to operate under an interim accreditation based on several weaknesses identified
during the formal certification process in 2004.

In response to this issue, the CIO has initiated a project to make major changes to the GSS and
upgrade a number of its components. As of the end date of our fieldwork, the GSS is still
undergoing the change process, and the C&A of the new GSS had not been completed. The
CIO has, however, brought in an experienced contractor to assist with the C&A activities and
ensure that they meet requirements of NIST SP 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems, and other federal guidance. This issue remains
open and has been expanded to include other weaknesses in the overall C&A process used to
review all major systems. This weakness represents a significant deficiency in NCUA’s security
program.




                                                 i
                OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION ADMINISTRATION’S
                  COMPLIANCE WITH THE FEDERAL INFORMATION SECURITY ACT - 2005
                                       Report #OIG-05-08

Second, we determined during prior reviews that information stored on examiners’ laptop
computers had not been addressed as part of NCUA’s information security program. The OCIO
recently upgraded the examination application which includes requiring all examination data
stored on laptops to be encrypted. When completed, this project will represent an improvement
in the protection of sensitive data. Training and implementation for this project will not be
completed until November 1, 2005. Therefore, we were not able to test the effectiveness of the
program as part of the 2005 review.

We also noted other weaknesses in IT security controls that did not rise to the level of significant
deficiencies:

       •       NCUA has not conducted adequate security control testing of all major
               information systems on an annual basis.

       •       Continuity of Operations Plan (COOP) and IT Disaster Recovery procedures do
               not reflect the current environment and have not been tested in 2005.

       •       NCUA has not developed policies and procedures for monitoring the security of
               outsourced systems.

       •       NCUA does not have a system inventory for all major information systems.

       •       NCUA has not completed the e-authentication risk assessment for major
               systems.

       •       NCUA has not documented policies and procedures guiding the process for
               managing the Plan of Action and Milestones (POA&M).

       •       NCUA does not have a configuration management plan that covers all agency
               systems and has not developed a minimum security baseline configuration for
               any of its systems or platforms.

       •       NCUA has not provided security awareness training to employees in 2005.

       •       NCUA has not conducted privacy impact assessments for any major information
               systems.

We concluded that these two significant deficiencies remain open after 3 years and other
security issues exist, because OCIO management had not created a tone at the top that
emphasizes both external perimeter and internal security and security-related activities.
Management has placed its focus on external security issues, and internal security has not been
made a priority. Management has not dedicated the resources to completing C&As and other
security assessments in accordance with FISMA, NIST, and OMB guidance. We encourage
NCUA’s Executive Director, the Director of the Office of Examination and Insurance, and the
CIO to address these issues as soon as possible.




                                                 ii
